OIG Investigative Reports October 04, 2010 - Roanoke, VA Former Clerk of Montgomery County School Board Pleads Guilty
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
The United States Attorneys Office
Western District of Virginia
Department of Justice
United States Attorney Timothy J.  Heaphy
Western District of Virginia
FOR IMMEDIATE RELEASE
Monday, October 04, 2010
CONTACT: Brian McGinn
PHONE: 434-295-8672
FAX: 434-293-4910
EMAIL: Brian.McGinn@usdoj.gov
www.usdoj.gov/usao/vaw
FORMER CLERK OF  MONTGOMERY COUNTY  SCHOOL BOARD PLEADS GUILTY
Anita Price Johnston Admitted To Stealing Funds
ROANOKE, VIRGINIA --The former Clerk of the Montgomery County School Board has pleaded guilty in the United States District Court for the Western District of Virginia to stealing funds from the Montgomery County School Board.
Anita Price Johnston, 45, of Elliston, Virginia, waived her right to indictment and pled guilty today to a criminal Information charging her with one count of mail fraud in relation to her employment as the Clerk of the Montgomery County School Board.
"As schools throughout the Commonwealth struggle with budget shortfalls, we must do all we can to ensure that school officials responsibly handle their limited funds," United States Attorney Timothy J. Heaphy said today. "Ms. Johnston used money which was promised to Montgomery County schoolchildren to line her own pockets. Today's plea ensures that she will be held accountable for her greed. It also requires her to pay restitution in the full amount of her fraud, which Will make her victim the Montgomery County School Board -whole."
Today in District Court, the defendant admitted to transferring checks and money orders that were meant to be deposited into the account of the Montgomery County School Board and placing them into her personal checking accounting. Johnston admitted to stealing money from the school board for a period of at least 24 months, in which time she stole over $120,000. Much of the monies the defendant stole were checks and money orders submitted to the Montgomery County School Board for fees paid as "use of facility payments." Once these, and other, payments were received, Johnston would deposit the funds into her personal account instead of the school board's account, as intended.
The investigation of the case was conducted by United States Postal Inspection Service, the Christiansburg, Virginia Police Department and the United States Department of Education. The Montgomery County School Board played a crucial role in identifying the fraud and brining the actions of Ms. Johnson to the attention of law enforcement. Assistant United States Attorney C. Patrick Hogeboom III is prosecuting the case for the United States.
Top
Printable view
Last Modified: 10/13/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov